No. 19-1031
I N T HE

Supreme Court of the United States
E RIN C APRON ; J EFFREY P ENEDO ; C ULTURAL C ARE ,
I NC ., d/b/a C ULTURAL C ARE A U P AIR ,
Petitioners,
v.
O FFICE OF THE A TTORNEY G ENERAL OF THE
C OMMONWEALTH OF M ASSACHUSETTS ;
M AURA T. H EALEY , in her capacity as Attorney
General of the Commonwealth of Massachusetts,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
BRIEF OF AMICI CURIAE HOST FAMILIES
IN SUPPORT OF PETITIONERS
Shay Dvoretzky
Counsel of Record
Jeffrey R. Johnson
Kristen Loveland
Admitted in New York
Not Admitted in D.C.
J ONES D AY
51 Louisiana Ave., N.W.
Washington, D.C. 20001
(202) 879-3939
sdvoretzky@jonesday.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICI CURIAE ............................... 1
SUMMARY OF ARGUMENT .................................... 7
ARGUMENT ............................................................. 10
I. MASSACHUSETTS’ LAW IMPAIRS THE AU PAIR
PROGRAM’S CULTURAL EXCHANGE OBJECTIVE ..... 10
A. The Au Pair Program Fosters Cultural
Exchange. ....................................................... 11
B. Host Families Fulfill the Program’s
Objective of Cultural Exchange .................... 13
C. Massachusetts’ Law Undermines the
Au Pair Program ............................................ 17
CONCLUSION ......................................................... 22

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Crosby v. Nat’l Foreign Trade Council,
530 U.S. 363 (2000) .......................................... 7, 21
STATUTES
22 U.S.C. § 2451 .................................................... 7, 11
940 Mass. Code Regs. § 32.00 et seq. ........................ 17
Mass. Gen. Laws Chapter 149, § 190 ....................... 17
Mass. Gen. Laws Chapter 151, § 1 ........................... 18
Mass. Gen. Laws Chapter 151, § 1A ......................... 18
Mutual Educational and Cultural
Exchange Act of 1961,
Pub. L. No. 87-256, 75 Stat. 527
(1961) .................................................................... 11
Pub. L. No. 101-454, § 8, 104 Stat. 1063
(1990) .............................................................. 11, 12
Pub. L. No. 103-415, 108 Stat. 4299
(1994) .................................................................... 12
Pub. L. No. 104-72, 109 Stat. 776
(1995) .................................................................... 12
OTHER AUTHORITIES
22 C.F.R. § 62.1.......................................................... 11
22 C.F.R. § 62.4.......................................................... 12
22 C.F.R. § 62.31.................................................. 12, 19

iii
TABLE OF AUTHORITIES
(continued)
Page(s)
Exchange Visitor Program,
60 Fed. Reg. 8547-02 (Feb. 15, 1995) .............. 7, 12
Katie Johnston, A Court Ruling Boosts
Au Pairs’ Pay, But It Puts Families
in a Bind, BOSTON GLOBE
(Dec. 12, 2019) ...................................................... 18

INTEREST OF AMICI CURIAE 1
The amici curiae are host families who participate
in the federal au pair program (the “Au Pair Program”
or the “Program”) and support Petitioners Erin
Capron, Jeffrey Penedo, and Cultural Care, Inc. Like
countless host families, amici are interested in the outcome of this case because it could affect their ability to
continue to participate in the Program. In addition,
amici’s experiences as host families show that the Program works as federal law intends and that imposing
state labor law on the Program thwarts those federal
objectives. Host families are uniquely positioned to assess how changes to the legal regime governing the Au
Pair Program have undermined the cultural exchange
that the Program fosters and have made it difficult for
host families to justify or afford the Program’s expense.
The amici host families are as follows:
Diana and Ethan Bren. Diana and Ethan welcomed their first au pair, from Brazil, in 2019. Diana
is a master data manager, and Ethan is a facilities specialist at a library. They were attracted to the Au Pair
Program because they wanted to introduce their children at a young age to a different culture and give a
young person from a different country the chance to
experience the United States. They treat their au pair
like family; she joins them for meals, outings, trips,
1

All parties have consented to the filing of this brief and received timely notice of amici’s intent to file as required by Rule
37. No counsel for any party authored this brief in whole or in
part, and no person or entity other than amici, their members, or
their counsel made a monetary contribution intended to fund the
preparation or submission of this brief.

2
and vacations. The Bren family is committed to facilitating cultural exchange. They have shown their au
pair around New England; exchange food and recipes
with her; and frequently discuss current events and
Brazilian culture with her. After their au pair’s parents and brother visited with the Bren family over the
Christmas and Hanukkah holidays, staying on to celebrate Diana’s and their daughter’s birthdays, the
Bren children began to talk about their “family in Brazil.” The family plans to visit Brazil once the children
are older, and their au pair hopes to continue her education in the United States. She is looking at colleges
near the Bren family so she can remain close by.
Imposing Massachusetts labor law on the Program
has changed the Bren family’s experience with it, leading to frequent second guessing about what is and is
not compensable. The law’s increased wage requirements have led to difficult conversations with their au
pair about how the family can afford to bring her on
trips and to family holidays, and Ethan has modified
his work hours because they now cannot afford to pay
their au pair for a full week’s childcare. The Bren family is unsure whether they will continue with the Program once their current au pair finishes her term.
Keli and Kevin Callaghan. Since 2015, Keli and
Kevin have hosted five au pairs from Brazil and Germany. Keli works in marketing and Kevin in finance.
Keli’s mother traveled from Ohio to au pair in France
when she was young, and Keli grew up with exchange
students and foreign au pairs living in her home. Keli
and Kevin were attracted to the Au Pair Program because it provided the opportunity to give their children
a similar experience of cultural exchange. They have

3
particularly appreciated the opportunity to hear different perspectives on current events and to expose
their children and their children’s friends to foreign
cultures and languages.
Their children see their au pairs as older siblings,
and Keli and Kevin treat their au pairs like members
of the family. The au pairs join the family for meals,
vacations, and large family gatherings, and everything that Keli and Kevin provide for their children,
they also provide for their au pairs. When Keli travels
to Europe on business, she often visits former au pairs,
and when the children are older, the family plans to
visit their au pairs in Brazil and Germany. The additional costs imposed by the Massachusetts law have,
however, made it difficult for the Callaghans to afford
the cultural excursions that were once central to their
au pairs’ experiences and thus to honor the Program’s
cultural commitment. They are uncertain whether
they will continue with the Program in the future.
Judith Gordon and Lewis Rosenberg. Judith
and Lewis welcomed their first au pair, from Austria,
into their home in 2019. Judith is a consultant for a
biotechnology firm and Lewis is currently on active
duty in the United States Army, deployed to the Middle East. They decided to participate in the program
when Lewis was deployed, seeking both additional
help while he was gone and to expose their son to German language and culture. Judith studied abroad in
Germany and hoped to travel there with her son. Judith and Lewis treat their au pair like family; their au
pair eats meals, goes on outings, and spends holidays
with the family. At Christmas, Judith gave their au
pair a personalized stocking to match the family’s and
baked Austrian cookies with her. Judith and Lewis are

4
also committed to the Program’s cultural exchange
mission. Their au pair toured Dallas and Savannah
with Judith, who covered all costs of the trips.
However, once their current au pair completes her
term, Judith and Lewis will not continue with the Au
Pair Program. The family has found it difficult to walk
the balance beam (to use Judith’s analogy) of complying with federal and state regulations, which often
seem to conflict. Even if Judith and Lewis could figure
out how to comply, the Massachusetts law has made it
impossibly expensive for them to participate in the
Program going forward. And because of those added
expenses, Judith is now uncertain that she will be able
to afford the trip with her son to Germany.
Kit Nichols and Duncan Kuhn. Since 2018, Kit
and Duncan have hosted two au pairs, both from Italy.
Kit is the director of talent management at a public
health organization and Duncan is an intensive care
physician. When Kit’s mother was young, she traveled
from Sweden to au pair for a family in New Hampshire, where she met Kit’s father; two of Kit’s Swedish
cousins have also participated in the Au Pair Program.
Given that background, it is no surprise that Kit and
Duncan were attracted to the Program’s cultural exchange objective. It is also no surprise that they have
treated each au pair like family, inviting each to join
in family activities, eat meals with the family, and go
on vacation together. Like a parent, Kit helps her au
pair with her papers, and they discuss her coursework
together. Kit and Duncan’s family has benefited tremendously from the experience. Their children both
now talk frequently about visiting Italy, in part because of their son’s newfound interest in Pompeii and
Mount Etna. Their daughter also sends their former

5
au pair care packages; they plan to visit her in Europe
one day.
The Massachusetts law has completely changed
Kit’s and Duncan’s experience with the Program. Constant second guessing about what is and is not compensable has undermined the cultural exchange that
drew them to the Program in the first place. It has also
made participation less economically feasible. As a result, Kit and Duncan are not sure that they will continue with the Program in the future.
Catherine Toupence and Casey Stanley. Since
2016, Catherine and Casey have hosted three au pairs,
all from France. Catherine works in digital program
management and Casey works in technical research
sales. They were attracted to the Program by the opportunity for cultural exchange, particularly from
France, Catherine’s grandfather’s home country. Like
the couples mentioned above, Catherine and Casey
treat their au pairs like family; they eat meals, spend
holidays, and vacation together. Their au pairs even
call Casey’s parents Grammy and Grampy. Catherine
and Casey have also opened their home to their au
pairs’ friends and family. For example, when their second au pair’s mother visited for the holidays, Catherine and Casey gave her a stocking and presents to
make her feel like part of the family. And when Catherine and Casey married, they covered all costs so
their first au pair could attend the wedding. Through
the Program, Catherine’s and Casey’s family has
learned about French culture, exchanged recipes, and
gained a desire to visit their au pairs in France.
The Massachusetts law has disrupted their experience with the Program. To save money, Catherine and

6
Casey had to reduce their au pair’s hours; they also
now have to have stilted conversations emphasizing
that when their au pair is “off the clock,” she need not
spend time with them or their children. The awkwardness runs both ways, as they have had to ask her to
pay for things for which they never contemplated asking previous au pairs to pay. Because of these changes,
they are uncertain about their future with the Program.

7
SUMMARY OF ARGUMENT
I. Amici join Petitioners in urging this Court to
grant certiorari and confirm that Massachusetts
cannot impose its labor laws on a federal cultural
exchange program where doing so conflicts with
federal law and destroys the objectives of that
program.
Federal law preempts state laws that “stand[ ] as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.” Crosby v.
Nat'l Foreign Trade Council, 530 U.S. 363, 373 (2000).
Congress piloted the Au Pair Program in 1986 “to increase mutual understanding between the people of
the United States and the people of other countries by
means of educational and cultural exchange,” 22
U.S.C. § 2451, and the federal government has since
repeatedly confirmed that the Program is “primarily a
cultural and educational exchange program.” Exchange Visitor Program, 60 Fed. Reg. 8547-02, 8548
(Feb. 15, 1995). As the experiences of amici show, cultural exchange is not just the purpose of the Program;
it is also the practice of its host families, who integrate
au pairs into their families, trade cultural experiences,
and build lasting relationships.
Imposing labor laws like Massachusetts’ on the Au
Pair Program makes that cultural exchange near impossible. It turns a familial relationship into a transactional one and renders unaffordable the cultural experiences that host families provide in order to fulfill
the Program’s objectives. Indeed, it threatens to destroy the program itself. Because of these changes,
amici feel that the Program can no longer serve the
purpose of cultural exchange it once did. Moreover,

8
these changes have made the Program more costly
than local childcare, so it is difficult for some to afford
or justify participating. As a result, if Massachusetts’
law remains in effect, some amici will not continue to
participate in the Program, and others may not be able
to do so. They are not alone.
A. Since its founding, the primary purpose of the
federal Au Pair Program has been to facilitate cultural
exchanges with people from other countries. Congress
has repeatedly reaffirmed that purpose, and federal
agencies have regulated the Program in accordance
with that character. The Program achieves its cultural
exchange objective by placing young foreigners
directly in the homes of American families. The
Program thus anticipates that cultural exchange will
take place through an au pair’s integration into an
American home and participation in the host family’s
daily activities and special occasions. Federal
regulation establishes a national, uniform stipend
formula for au pairs, which facilitates the
development of a familial relationship between host
family and au pair by ensuring that their interactions
do not devolve into transactional exchanges of work for
wages.
B. The Au Pair Program has accomplished its purpose. Host families like amici have signed up for the
Program because of the opportunity to share American
culture with foreign au pairs and to learn about their
culture in return. Hosts dedicate themselves to this
task. For example, many host families plan special
trips and outings so that au pairs can tour the local
region and other parts of the United States. As the
Program intends, however, much of the cultural exchange takes place in the home—through discussions

9
at the dinner table, celebrating holidays, and visits to
and from the families of hosts and au pairs. Because
these exchanges take place within the family environment, making au pairs feel like they are part of the
host family is critical to the Program’s success. Doing
so creates the familiarity necessary for cultural interactions to occur organically and creates relationships
that extend far beyond the au pair’s stay.
C. Applied to the Au Pair Program, laws like Massachusetts’—which require the payment of an hourly
wage for hourly work and vastly increase the Program’s costs and record-keeping burdens—undermine
the Program’s cultural exchange objectives and
threaten its very existence. Such laws thwart cultural
exchange by turning a familial relationship into a
transactional one. And the dramatically increased
costs they impose make it difficult for host families to
fulfill the Program’s cultural exchange objective, because families can no longer afford to put their limited
resources toward cultural experiences. Ultimately,
these increased costs make it difficult for families—including amici’s—to justify or afford continued participation in the Program. Laws like Massachusetts’ thus
threaten the Program’s existence by decreasing the
number of families willing or able to act as hosts.
The First Circuit wrongly held that federal law did
not preempt Massachusetts from applying its labor
law to the Au Pair Program. The only way to now prevent such state laws from undermining the purpose
and existence of the Program is for this Court to grant
review of the First Circuit’s decision and reverse it.

10
ARGUMENT
I. MASSACHUSETTS’ LAW IMPAIRS THE AU PAIR
PROGRAM’S CULTURAL EXCHANGE OBJECTIVE
The primary purpose of the federal Au Pair Program
is to facilitate cultural exchanges by integrating foreign au pairs into American families. In keeping with
that purpose, amici have opened their homes and lives
to foreign au pairs and have dedicated their time,
money, and energy to exposing them to American culture. Amici have in turn learned about the cultures of
other countries, broadening their and their children’s
horizons and developing deep and lasting relationships with individuals from around the world.
Massachusetts’ law imperils the Program’s central
objective. By requiring host families to pay their au
pairs hourly domestic worker wages rather than follow
a uniform stipend formula, the law turns every encounter into a potential transaction, placing au pairs
firmly in the “worker” rather than “family” category
and undermining the relationships through which cultural exchange takes place. Laws like Massachusetts’
also make it difficult for families to fulfill the Program’s purposes by forcing them to spend limited resources on increased wages rather than cultural experiences. Many host families, including amici, now wonder why they should participate in a Program that no
longer fosters cultural exchange. They also wonder
how they can justify or afford the Program’s increased
costs, particularly because hosting an au pair now
costs more than hiring local childcare. As a result,
laws like Massachusetts’ not only thwart the Program’s objectives; they threaten its very existence.

11
A. The Au Pair Program Fosters Cultural
Exchange.
1. From its founding, the purpose of the federal Au
Pair Program has been to promote cultural exchange
between Americans and citizens of foreign countries.
The Program was created pursuant to the Mutual Educational and Cultural Exchange Act of 1961, Pub. L.
No. 87-256, 75 Stat. 527 (1961) (Fulbright-Hays Act),
which seeks to “increase mutual understanding between the people of the United States and the people
of other countries,” “strengthen the ties which unite us
with other nations,” “promote international cooperation for educational and cultural advancement,” and
“assist in the development of friendly, sympathetic,
and peaceful relations between the United States and
the other countries of the world.” 22 U.S.C. § 2451. The
Program is one of the Department of State’s Exchange
Visitor Programs, which “provide foreign nationals
with opportunities to participate in educational and
cultural programs in the United States and return
home to share their experiences.” 22 C.F.R. § 62.1(b).
Because the Program is intended to foster cultural exchange with foreign countries, agencies responsible for
the United States’ foreign diplomacy have always been
responsible for its oversight. See Pet. 19; 22 C.F.R.
§ 62.1(a) (“Educational and cultural exchanges assist
the Department of State in furthering the foreign policy objectives of the United States.”).
Of course, the Au Pair Program also includes a
childcare component. But Congress has repeatedly reaffirmed its character as a cultural exchange program
designed to strengthen ties and increase mutual understanding between the United States and foreign
countries. See Pet. 6; Pub. L. No. 101-454, § 8, 104

12
Stat. 1063 (1990); Pub. L. No. 103-415, 108 Stat. 4299,
4302 (1994); Pub. L. No. 104-72, 109 Stat. 776, 776
(1995). The agencies responsible for administering it
have likewise recognized that the Program is “primarily a cultural and educational exchange program,” and
they have regulated the Program accordingly. 60 Fed.
Reg. at 8548. The Program was never meant as—and
has not been treated as—a jobs program for foreigners.
2. The Program achieves its objective by placing
young foreigners (between the ages of eighteen and
twenty-six) directly in the homes of American families.
There, they have “the opportunity to live with an
American host family and participate directly in the
home life of the host family.” 22 C.F.R. § 62.31(a); see
also id. § 62.4(h)(5) (defining an au pair as “[a] foreign
national who comes to the United States for the purpose of residing with an American host family and participating directly in their home life”). Au pairs also
pursue continuing education at a nearby college or
university. See id. § 62.31(k). Immersion in the home
life of an American family, combined with their educational experience, exposes foreign au pairs to American society and values, enabling them “to return home
as unofficial ‘ambassadors’ for the United States.”
US.CA.Br.20.
Federal regulation establishes a uniform, national
stipend formula for au pairs. 22 C.F.R. § 62.31(j). The
United States Information Agency, which originally
oversaw the Program, described the uniform formula
as a “programmatic need,” 60 Fed. Reg. at 8551, and it
is easy to see why. A uniform stipend formula keeps
the Program affordable so foreign au pairs will be exposed to a diversity of American families and so that

13
families can afford to provide their au pairs with a variety of cultural excursions and experiences. It ensures
uniformity across states so that no one region becomes
more attractive than another. Most importantly, it facilitates the development of the familial relationship
on which the Program’s cultural exchange depends by
ensuring that interactions between hosts and au pairs
do not devolve into bartering negotiations about work
for wages.
B. Host Families Fulfill the Program’s Objective of Cultural Exchange.
1. Host families bring the Au Pair Program’s objective of cultural exchange to life. Cultural exchange is
not just the purpose of the federal Au Pair Program; it
is its practice. Host families dedicate themselves to integrating au pairs into their families and exposing
them to American culture. Au pairs, in turn, teach
host families about their home country’s society, language, and politics.
The Program’s chief objective is also the primary
reason many host families, including amici, sign up.
For many, cultural exchange played a key role in their
childhoods, and they now want to expose their children
to similar world-broadening experiences. For example,
Catherine Toupence participated in a work and study
abroad program in London and later worked in Switzerland, Romania, and France. Because of those experiences, and because she wanted to learn more about
France, the country from which her grandfather emigrated, she has hosted three French au pairs. The parents of another host parent could no longer afford to
travel the world after they had children, so they

14
brought the world to their home by hosting foreign exchange students. That host parent decided to host foreign au pairs so she could likewise expose her young
children to different cultures. For her part, Judith
Gordon was an exchange student in Germany and
hoped to visit Germany with her son, so she sought a
German-speaking au pair for their home.
Other amici have similar stories. Keli Callaghan’s
mother traveled from Ohio to au pair in France, and
Keli’s parents, wanting their children to be citizens of
the world, frequently welcomed foreign au pairs and
exchange students into their home. Keli has continued
the tradition, hosting five au pairs over the past six
years. Like Keli, Kit Nichols has close family members
who were au pairs. Indeed, Kit’s mother worked as an
au pair for a family in New Hampshire—where she
met Kit’s father. Two of Kit’s Swedish cousins went on
to participate in the Au Pair Program in the 1990s,
and Kit has now hosted two au pairs of her own.
2. Having joined the Program for the purpose of cultural exchange, host families dedicate themselves to
introducing their au pairs to American culture and to
learning about the cultures and societies of their au
pairs. Families plan frequent trips with their au pairs
to see local sights—walking the Freedom Trail from
Boston Common to Bunker Hill, visiting the Bradley
Estate, hitting up Harvard Square, catching a game at
Fenway Park. They also take part in regional events,
like Salem at Halloween and Cape Cod during the
summer. Many host families also introduce their au
pairs to the wider area, taking trips to coastal Maine,
Vermont, Providence, and New York City. It is not unusual for host families to take their au pairs to even

15
more distant places—to visit Dallas and Savannah, ski
in Utah, or celebrate a birthday in New Orleans.
These outings further the Program’s purpose of cultural exchange; what better place to learn about America than Lexington and Concord? But much of the cultural exchange takes place—as the Program intends—
within the daily rhythms of the host family’s home.
Host families and au pairs swap meals and recipes, exchanging American steak and potatoes for Brazilian
rice and beans, grandma’s lasagna for more modern
Italian fare. Over the dinner table, host families discuss politics and world affairs, hearing different perspectives on topics such as the Amazon rainforest
fires, the Olympics, and national responses to global
crises. Through frequent conversations with host parents and their children, au pairs become far more fluent in English than when they arrived, enabling them
to continue their education at English-language colleges and universities in the United States and
abroad. The children of host families in turn learn
songs, words, and numbers in foreign languages. (One
of amici’s children takes a day of Italian at school and
then practices with her Italian au pair at home.)
Au pairs also celebrate holidays with their host families and their host families’ extended families, taking
part in traditional activities like pumpkin picking or
attending midnight mass. To make their au pairs feel
like part of the family, host families give their au pairs
what they give their children: personalized Christmas
stockings, Easter baskets, Hanukkah presents, and so
on. The au pairs in turn introduce host families to
their own holiday traditions. When Diana and Ethan

16
Bren’s au pair told them about Brazil’s Dia dos Namorados—like Valentine’s Day, but on June 12—the family surprised her by celebrating with her.
Host families often welcome au pairs’ families into
their homes for long holiday stays, expanding and
deepening the cultural exchange. Catherine Toupence
and Casey Stanley hosted the parents of their current
au pair for two weeks over the holidays, celebrating a
joint New Year’s with toasting at midnight in France
and midnight in Boston. They hosted their previous au
pair’s mother over the Christmas holiday, providing
the mother her own Christmas stocking and gifts so
she would feel like part of the family. The Bren family
likewise hosted their au pair’s parents and brother
over the holidays, integrating the two families to such
a degree that the Bren children now call their au pair’s
parents their “family in Brazil.”
3. Because these exchanges take place primarily in
the family home, ensuring that au pairs feel comfortable as members of their host families is critical to the
Program’s success. It creates the familiarity necessary
for organic cultural exchange and removes questions
of work and wages that could formalize and obstruct
interactions if au pairs were seen as employees rather
than family members.
Host families labor diligently to create that familiarity. They introduce au pairs to their extended families, welcome au pair’s families into their homes for
lengthy stays, and sit down to frequent meals and discussion with their au pairs. One host parent has described her relationship with her au pairs as akin to
that of aunt and niece; another describes her au pairs
as older siblings to her children. As with a niece or

17
older child, a host parent might give advice to an au
pair about schooling, careers, and relationships. And
as with a niece or older child, a host family will cover
the expenses associated with living together—cell
phone bills, meals out, takeout in, and the costs of family trips. Host families also often provide their au pairs
access to local transportation, whether through a family car (and its gas and insurance expenses) or a train
pass. As with nieces and older children, hosts also often surprise au pairs with gifts.
Treating au pairs like family helps to extend the cultural exchange by creating the types of relationships
that last far beyond an au pair’s stay. All amici keep
in touch with their former au pairs through phone
calls, FaceTime, texts, and visits. One au pair who is
interested in continuing her education in the United
States is looking at colleges near her host family so she
can remain close by. Another asked her host family’s
daughters to be flower girls in her wedding. All amici
hope that they and their children will eventually visit
their au pairs in their home countries.
C. Massachusetts’ Law Undermines the Au
Pair Program.
In 2014, Massachusetts enacted the Massachusetts
Domestic Workers Bill of Rights (“DWBOR”), Mass.
Gen. Laws ch. 149, § 190. The state Attorney General’s
Office issued implementing regulations the following
year. 940 Mass. Code Regs. § 32.00 et seq. On top of the
uniform stipend formula for au pairs required by federal law, these provisions require host families to compensate their au pairs at a state minimum on an
hourly basis, with overtime rates for all hours over 40
hours per week. They allow host families to deduct

18
only very limited amounts for room and board and require host families to keep extensive records. See Pet.
10–11.
Laws like Massachusetts’ undermine the Program’s
cultural exchange objective by transforming what is
meant to be a familial relationship into an economic
one. The Program’s uniform stipend formula serves
the “programmatic need” of facilitating cultural exchange by taking questions of hours and wages off the
table. In amici’s experience, however, Massachusetts’
law now layers each interaction with financial questions—whether the au pair is “on the clock”; whether
the interaction is compensable; and whether the host
parent should, once again, emphasize that the au pair
need not stay at the table, keep chatting with the children, or make a meal from her home country for the
family. The natural flow of family life is disrupted by
perpetual bartering, which hinders the cultural exchange that would otherwise take place through organic family interactions.
In addition to altering the nature of a host family’s
relationship with its au pair, Massachusetts’ law dramatically increases the costs of having an au pair in
the first place. The minimum weekly stipend paid to
au pairs under federal law is $195.75. See US.CA.Br.7.
But the minimum wage for an au pair performing the
same 45 hours of childcare in Massachusetts is 150%
higher—totaling $605.63 for wages and overtime—
with at most a $77 deduction for room and board. See
Mass. Gen. Laws ch.151, §§ 1, 1A (minimum wage and
overtime). Massachusetts law can thus increase the
cost of hosting an au pair by more than $17,000 a year.
Katie Johnston, A Court Ruling Boosts Au Pairs’ Pay,

19
But It Puts Families in a Bind, BOSTON GLOBE (Dec.
12, 2019), https://bit.ly/37YNMzm.
Despite these costs, the First Circuit saw no reason
why a family that needed childcare would opt out of
the Au Pair Program. Pet. App. 60. The court reasoned
that because the wages of au pairs and local childcare
providers were equivalent under Massachusetts’ labor
law, families would have no reason to switch from the
Program to local childcare. Id. But the First Circuit
failed to appreciate that wages are just the start of the
benefits that host families have traditionally given
their au pairs. Unlike local childcare providers—who
have their own homes, their own cars (or T passes),
and their own cell phones—host families generally
provide these items to their au pairs. Host families
also invest a significant amount of emotional energy
integrating au pairs into their families. Unlike au
pairs, local childcare providers do not expect host families to take them to see the sights or treat them like
members of the family by welcoming them at the dinner table, advising them on education, careers, and relationships, or inviting them to spend the holidays together. Nor do they expect families to pay up to $500
for their educational expenses, as host families are required to do for their au pairs. See 22 C.F.R.
§ 62.31(k)(1). Thus, if an au pair and a local childcare
provider are paid the same base wage, hosting an au
pair becomes far more costly in terms of money, time,
and energy, and families have every reason to opt out
of the Program and into the local childcare market.
That is all the more so if the increased costs make it
impossible for families to fulfill the Program’s cultural
exchange promise. The money for the additional costs

20
imposed by Massachusetts law has to come from somewhere. Unfortunately, it often comes from the very
kinds of activities that have so successfully integrated
au pairs into their host families for so long. In this
vein, a number of amici have already had to stop or cut
back on outings, trips, dining out, and gifts. One family cancelled their annual trip to Vermont with their
au pair. Other host families are now having difficult
conversations with their au pairs about who will pay
for what. A family who usually covers their au pair’s
trip to Connecticut to spend Passover with the family
worried that they would be unable to afford it this
year. The family and au pair ultimately agreed that
the au pair would provide no childcare over the course
of the stay so that the family could afford the cost of
her trip and stay. Such conversations deter families
from embarking on outings and trips in the first place
and strain the familial relationship that is supposed to
anchor the Program’s cultural exchange.
Massachusetts’ law thus puts host families in a difficult position. They participate in the Au Pair Program to share in the cultural exchange that it provides, but that exchange is now hampered by omnipresent transactional questions. And while participants in the Program have always had to pay their au
pairs under a federal uniform stipend formula, they
must now pay dramatically increased wages under
Massachusetts’ minimum wage, escalating the costs so
significantly that participating in the Program costs
considerably more than local childcare. As a result, for
some host families, the expense of the diminished Program is not only unjustifiable—it is unaffordable. Indeed, some amici have already been forced to reduce

21
their au pair’s childcare hours because they cannot afford to pay their au pairs for a full week of childcare at
the Massachusetts rate. All amici have stated that, at
the very least, they are unsure about whether they will
be able to participate in the Program going forward;
some are certain that they will not. One host family
bought a house with a third-floor living area with the
expectation that they would host au pairs for the next
six years, but now they plan to discontinue the program once their current au pair finishes her term.
Laws like Massachusetts’ thus not only thwart the cultural exchange objectives of the Au Pair Program; they
threaten its very existence. If all but the wealthiest
Americans either cannot justify (or cannot afford) the
Program’s expense, the number of families willing or
able to participate in the Program will greatly decline.
Limiting the Program to the wealthiest Americans not
only reduces the number of families available to host,
it also undermines the Program’s objective of introducing foreign au pairs to a diversity of American families.
Amici, who include data and program managers, a library worker, a doctor, and an active duty service
member, reflect that diversity. They will not be able to
do so if Massachusetts’ law remains on the books.
Laws like Massachusetts’ thus conflict with federal
law and “stand[ ] as an obstacle to the accomplishment
and execution of the full purposes and objectives” that
Congress had when it enacted and repeatedly reaffirmed the Au Pair Program as a vehicle for cultural
exchange. Crosby, 530 U.S. at 373. The First Circuit
wrongly held that federal law did not preempt Massachusetts from applying its labor law to the Program.
The only way to now prevent such state laws from undermining the purpose and existence of the Au Pair

22
Program is for this Court to review the First Circuit’s
decision and reverse it.
CONCLUSION
The Court should grant certiorari and confirm that
Massachusetts cannot impose its labor laws on a federal cultural exchange program where doing so conflicts with federal law and destroys the purposes and
objectives of that program.
April 16, 2020

Respectfully submitted,
Shay Dvoretzky
Counsel of Record
Jeffrey R. Johnson
Kristen Loveland
Admitted in New York
Not Admitted in D.C.
J ONES D AY
51 Louisiana Ave., N.W.
Washington, D.C. 20001
(202) 879-3939
sdvoretzky@jonesday.com

Counsel for Amici Curiae

